            OFFICE OF
     THE INSPECTOR GENERAL
SOCIAL SECURITY ADMINISTRATION


UNNECESSARY MEDICAL DETERMINATIONS
 FOR SUPPLEMENTAL SECURITY INCOME
         DISABILITY CLAIMS


      February 2012   A-01-10-20120




AUDIT REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o n fid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a in s t fra u d , wa s te a n d a b u s e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le in fo rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f In s p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e p e n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a g e n c y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a g e n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re g a rd in g e xis tin g a n d p ro p o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a g e n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o p e ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p o we rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wh a t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e wh ile e n c o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                            SOCIAL SECURITY
MEMORANDUM

Date:   February 21, 2012                                                    Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Unnecessary Medical Determinations for Supplemental Security Income Disability
        Claims (A-01-10-20120)


        OBJECTIVE
        The objective of our review was to determine the extent of unnecessary medical
        determinations for Supplemental Security Income (SSI) disability claims, which incur
        additional costs to the Social Security Administration (SSA).

        BACKGROUND
        SSI is a nation-wide, Federal cash assistance program administered by SSA that
        provides a minimum level of income to financially needy individuals who are aged, blind,
        or disabled. 1 To be eligible for SSI, individuals must meet certain non-medical criteria,
        such as income and resource limitations, and requirements for living
        arrangements/residency, and citizenship or qualified alien status. 2

        When a claimant files an SSI disability claim, SSA obtains and reviews the claimant’s
        non-medical information to determine whether he or she meets the non-medical criteria
        for SSI payments. If not, SSA processes a non-medical denial. If it appears the
        claimant meets the non-medical criteria for SSI, SSA generally forwards the claim to the
        disability determination services (DDS) in the State or other responsible jurisdiction for a
        medical determination. In 2009, SSA processed 515,048 non-medical denials for SSI
        claims without referring the claims to the DDS.

        If the claimant disagrees with the initial disability determination, he or she can file an
        appeal within 60 days from the date of notification of the determination. In most cases,
        an individual may request up to three levels of administrative review:
        (1) reconsideration by the DDS, (2) hearing by an administrative law judge (ALJ),

        1
            Social Security Act § 1601 et. seq., 42 U.S.C. § 1381 et. seq.
        2
            SSA, POMS, SI 00501.001 (January 18, 2005).
Page 2 - The Commissioner

and (3) review by the Appeals Council. If a claimant is dissatisfied with the Appeals
Council’s decision, he or she may appeal to the Federal Courts.

When the SSI claim results in a non-medical denial after the medical determination,
critical resources are unnecessarily expended. Obtaining unnecessary medical
determinations costs the Agency valuable personnel time and resources. In Fiscal Year
(FY) 2009, the cost for SSA to process a non-medical denial was $16.70 per claim. The
cost for a DDS to make a medical determination was $519 per claim, and the cost for a
hearing was $1,690 (this includes the $519 DDS medical determination cost plus the
cost of an ALJ decision, which is $1,171 per claim).

During a prior review, Disability Insurance and Supplemental Security Income Claims
Approved in 2006 But Not Paid, 3 we found that DDSs received claims for a medical
determination in cases where the individuals were ineligible for SSI payments because
of non-medical reasons. We initiated this review to determine the extent of this issue.

We obtained a file of SSI-only claims for Calendar Year (CY) 2009 with a medical
determination made by the DDS that contained a non-medical denial. Our analysis of
this file identified 19,395 claims that SSA appeared to have unnecessarily sent to the
DDS for a medical determination. In addition, these individuals were not receiving
benefits as of March 2011. We randomly selected 250 cases from this population for
detailed analysis.

We also obtained a file of SSI-only claims with ALJ decisions made in CY 2009 that
contained a non-medical denial. 4 Our analysis of this file identified 519 claims that
appeared to have unnecessarily received an ALJ decision. In addition, these individuals
were not receiving benefits as of August 2011. We randomly selected 50 cases from
this population for detailed analysis. (See Appendix B for our scope, methodology, and
sample results.)




3
 SSA OIG, Disability Insurance and Supplemental Security Income Claims Approved in 2006 But Not
Paid (A-01-10-11009), July 2010.
4
 Though DDSs make medical determinations and ALJs make medical decisions, for purposes of this
audit report, we will call determinations and/or decisions “medical determinations.”
Page 3 - The Commissioner

RESULTS OF REVIEW
SSI disability claims received medical determinations even though the claimants did not
meet the non-medical criteria for SSI. Based on our review, we estimate that 7,391 SSI
claims unnecessarily received a medical determination in 2009. As a result, SSA spent
approximately $3.8 million on unnecessary medical determinations. 5

Of the 250 DDS cases in our
sample,                                                Results of Review - DDS Sample Cases
•   93 (37 percent) did not need a
    medical determination of
    disability;                                  93 Cases-
                                               Did Not Need a                          8 Cases-
•   89 (36 percent) were properly                  Medical                             Unknown
                                               Determination
    referred to the DDS based on
    information provided by the
                                                   89 Cases-
    claimant;                                       Properly                         60 Cases-
                                                   Handled by                       Not Applicable
•   60 (24 percent) were not                        the DDS
    applicable because they had
    another claim that needed a medical determination; and
•   8 (3 percent) were unknown because we were unable to determine what information
    the claimant provided at the time of application.

In addition, of the 50 ALJ cases in                    Results of Review - ALJ Sample Cases
our sample,
•   17 (34 percent) did not need a               17 Cases-
    medical determination of                   Did Not Need a                         2 Cases-
    disability;                                    Medical                            Unknown
                                               Determination
•   13 (26 percent) were properly
    referred to the ALJ based on                   13 Cases-
    information provided by the                     Properly                         18 Cases-
                                                   Handled by                       Not Applicable
    claimant;                                       the ALJ




5
  We based our $3.8 million estimate by projecting the 89 cases unnecessarily sent to the DDS for a
medical determination (as described on page 4 under “DDS Sample Cases That Did Not Need a Medical
Determination”) and 14 cases that were unnecessarily sent to an ALJ for a hearing decision (as described
on page 6 under “ALJ Sample Cases Not Needing a Medical Determination”). We did not include four
cases that SSA should have recalled from the DDS because the Agency was aware that the claimant did
not qualify based on non-medical criteria, or three cases that SSA should have recalled from the ALJ
because, although these cases incurred some costs at the DDS/ALJ, we were not able to quantify the
total costs involved.
Page 4 - The Commissioner

•     18 (36 percent) were not applicable because they had another claim that needed a
      medical determination; and
•     2 (4 percent) were unknown because we were unable to determine what information
      the claimant provided at the time of application.

DDS SAMPLE CASES THAT DID NOT NEED A MEDICAL DETERMINATION

Of the 93 claims that did not need a medical determination by the DDS, 6
•     89 should not have been sent to the DDS for a determination because information
      provided on the application indicated the claimant did not qualify for SSI based on
      non-medical criteria, and
•     4 should have been recalled from the DDS before a determination was made
      because SSA became aware that the claimant did not qualify based on non-medical
      criteria. (See Table 1 for the reasons SSA denied these cases.)

          Table 1: Reasons for Denial for Claims with an Unnecessary Medical
                                    Determination from DDS
                          Reason                     Number of Cases Portion
      Income was too high                                   50         54%
      Resources were too high                               24         26%
      Not a citizen or qualified alien                      14         15%
      In a public institution                                4          4%
      Fugitive felon status                                  1          1%
      Total cases with unnecessary medical
                                                            93        100%
      determinations
      Note: Table 1 details our actual sample findings. Separate random samples or further
      expansion of our sampling effort may or may not provide similar results.

Claims Unnecessarily Sent to the DDS

In 89 cases, SSA should not have sent the claim to the DDS for a medical determination
because information provided on the application indicated that the claimant did not
qualify for SSI based on the non-medical criteria at the time of application. In addition,
in 6 of the 89 cases, SSA issued a non-medical denial notice before the DDS made the
medical determination, yet DDS staff continued working on the claim because the
Agency did not share this information. Had these claims not been referred to the DDS,
SSA would have saved $46,191 and could have used these resources for other
workloads.

For example, a man from California applied for SSI disability payments in January 2009.
When he filed the claim, the claimant reported that he was not a U.S. citizen. SSA did
not develop his alien status, even though the Agency denied a prior claim filed in
6
    Of these 93 cases, the DDS medically allowed 78 and denied 15.
Page 5 - The Commissioner

2003 because he was not a citizen or qualified alien. SSA staff erroneously sent his
claim to the DDS for a medical determination. The DDS worked on this claim for
4 months, requesting medical information from several sources, and even purchasing
an examination to obtain more information. In April 2009, the DDS medically allowed
this claim, but SSA denied the claim because the claimant was not a U.S. citizen or
qualified alien.

In another example, in December 2008, a man filed for SSI disability payments for his
15-year-old son. At that time, the man reported he had over $5,000 of earned income
per month. Even though this is over the income limits for SSI, SSA still sent the claim to
the DDS for a medical determination. The DDS medically allowed this claim in
April 2009, but SSA denied the claim because of the man’s excess income.

Of these 89 cases, 8 also received a medical decision on appeal at either the
reconsideration or ALJ level. 7 These cases incurred additional costs to the Agency.

For example, in September 2008, a woman from Louisiana applied for SSI payments for
her 1-year-old son. On the application, she reported that she and her husband owned
stock, but left the value blank. SSA did not confirm the value of stock and sent her
claim to the DDS for a medical determination. The DDS medically denied the claim at
both the initial and reconsideration levels, and the woman appealed and requested a
hearing before an ALJ. In July 2010, the ALJ medically approved the claim, but a few
months later, SSA denied the claim because of excess resources. When SSA verified
the resources, the Agency found that the stock was worth over $8,000, making the
claimant ineligible for SSI payments. Had the Agency obtained the value of the stock
before sending the claim to the DDS, SSA would have saved valuable personnel time
and resources. As of August 2011, this claimant is still not receiving SSI.

Recalling Claims from the DDS

In four cases, although SSA properly sent the claims to the DDS based on the
information the claimants provided at the time of application, the Agency should have
recalled the cases. In these cases, SSA became aware that the claimants did not
qualify for SSI based on non-medical criteria and sent a denial notice to the claimant
before the DDS made the medical determination. DDS staff continued to work on these
cases and made medical determinations that were unnecessary.

For example, on February 6, 2009, a woman applied for SSI disability payments for her
7-year-old son. She did not report income for him at that time. On February 21,
15 days later, the woman notified SSA that her son was receiving over $1,500 a month
in child support payments, which was over the income limits. SSA issued a
non-medical denial notice on March 25, 2009, but did not notify the DDS that this child
was not eligible for SSI. The DDS continued working the case and medically allowed
the claim on April 24, 2009 after SSA processed the non-medical denial.

7
    All eight of these cases received a medical allowance as the final determination.
Page 6 - The Commissioner

Claims Properly Handled by the DDS

Of the 250 cases in our sample, DDS staff properly handled 89 based on the
information the claimant provided at the time of application. In some of these cases, the
claimants did not disclose information that resulted in a non-medical denial. In other
cases, SSA did not fully develop the non-medical criteria. In 46 of these 89 cases, SSA
deferred the non-medical development. If SSA had fully developed the non-medical
criteria for these 46 cases, the Agency should still have sent 43 of the cases to the DDS
for a medical determination. However, SSA would have discovered that three of the
cases should not have been referred to the DDS for a medical determination.

For example, a woman from Washington applied for SSI disability payments in
December 2008. At that time, she reported that the only resources she and her
husband owned were two vehicles, with values under the resource limit. SSA sent her
claim to the DDS for a medical determination, and in April 2009, the DDS medically
allowed the claim. After the allowance, the claimant admitted to owning property worth
over $56,000, which made her ineligible for SSI. Had the claimant disclosed this
information at the time of application, SSA would not have sent the claim to the DDS for
a medical determination. As of August 2011, this claimant was still not receiving SSI.

In another example, a woman from Texas applied for SSI payments for her 14-year-old
son in November 2008. At the time of the application, she alleged that she owned
2 acres of land worth $2,000. Based on this allegation, SSA sent the claim to the DDS
for a medical determination, and in January 2009, the DDS medically allowed the claim.
SSA then verified the value of the land and determined it was worth over
$16,000, which made the child ineligible for SSI payments. Had SSA verified this
information at the time of application, the Agency would not have sent the claim to the
DDS for a medical determination. 8 As of August 2011, this claimant was still not
receiving SSI.

ALJ SAMPLE CASES NOT NEEDING A MEDICAL DETERMINATION

Of the 17 claims that did not need a medical determination by an ALJ: 9
•     14 should not have been sent to the ALJ for a determination because information
      provided on the application indicated the claimant did not qualify for SSI based on
      non-medical criteria, and
•     3 should have been recalled from the ALJ before a determination was made
      because SSA became aware that the claimants did not qualify based on
      non-medical criteria. (See Table 2 for the reasons SSA denied these cases.)




8
    SSA, POMS, DI 11055.035 (June 1, 2010).
9
    Of these 17 claims, the ALJ medically allowed 14 and denied 3.
Page 7 - The Commissioner


       Table 2: Reasons for Denial for Claims with an Unnecessary Medical
       Determination from the ALJ
                           Reason                Number of Cases     Portion
       Income was too high                                7           41%
       Resources were too high                            7           41%
       Not a citizen or qualified alien                   2           12%
       In a public institution                            1            6%
       Total cases with unnecessary medical
                                                         17          100%
       decisions
      Note: Table 2 details our actual sample findings. Separate random samples or further
      expansion of our sampling effort may or may not provide similar results.

For example, a woman from Pennsylvania filed for SSI disability payments in April 2008.
At the time of the application, she alleged that she and her spouse each had two life
insurance policies. SSA did not confirm the value of these policies, and sent her claim
to the DDS for a medical determination. The DDS denied her claim, and she filed a
request for a hearing before an ALJ in December 2008. In December 2009, the ALJ
approved her claim. SSA verified the value of the life insurance policies in March 2010
and found that they were worth over $4,000, which made her ineligible for SSI
payments. Had SSA verified this information at the time of application, the Agency
would not have sent the claim for a medical determination 10—and would have saved
almost $1,700. As of August 2011, this claimant was still not receiving SSI.

THIRD-PARTY DATA

SSA relies on recipients to report their income and resources accurately. In FY 2010,
financial accounts exceeding the resource limit were the leading cause of SSI
overpayments—projected at $858 million. 11 The Agency examined alternatives to the
traditional SSI asset verification practices of recipient self-reporting. As a result, SSA
created the Access to Financial Institutions (AFI) initiative, which allows the Agency to
request and receive financial account information electronically. Using AFI, a vendor
handles the request for, and receipt of, financial information; automatically checks an
applicant’s known bank accounts; and systematically checks for unknown accounts with
financial institutions in a given area. SSA started the AFI initiative in 2003, with three
States testing the program. As of June 2011, all SSA offices were using AFI.

Additional third-party data exist that SSA could use to verify resources—if the Agency
could find an efficient way to use these data. For example, SSA staff can access the
LexisNexis Risk Management Solutions database as an optional tool to obtain
information about the SSI applicants’ real property ownership, transfer of real property

10
     SSA, POMS, DI 11055.035 (June 1, 2010).
11
  SSA, Office of Quality Performance, FY 2010 Title XVI Payment Accuracy (Stewardship) Report,
June 2011.
Page 8 - The Commissioner

for less than fair market value, or recent sale of property. Of the 102 cases (89 from the
250 DDS sample cases and 13 from the 50 ALJ sample cases) that SSA properly
handled based on the information provided by the claimant, 14 contained information on
LexisNexis that, if queried, would have alerted SSA that the claimant was over the
resource limit.

We published two reports that recommend SSA use electronic data sources to verify
recipients’ allegations of resources. 12 These reports stated that some recipients did not
report resources that could be detected using data available to the Agency. In response
to our recommendations for both of these reports, SSA agreed to assess the
costs/benefits of using electronic data sources for SSI applicants.

CONCLUSION AND RECOMMENDATION
Our review found that although SSA properly referred most SSI cases for medical
determinations, the Agency obtained some medical determinations unnecessarily. We
estimate that SSA unnecessarily obtained medical determinations for 7,391 SSI claims
in 2009 at a cost of about $3.8 million. These cases represent a very small percentage
of the more than 2 million SSI disability claims processed in 2009. The cost of
processing a non-medical denial is $16.70 per claim, while the cost for the DDS to make
a medical determination is about $519 per claim and the cost for an ALJ decision is
about $1,171 per claim.

Therefore, we recommend SSA remind staff to process non-medical denials for SSI
claims that do not meet requirements before referring to the DDS.

AGENCY COMMENTS
SSA disagreed with the recommendation. The Agency stated that in 2009, it correctly
referred 99.7 percent of its cases to the DDSs for a medical decision. Because of the
Agency’s high level of accuracy, it did not believe a reminder was necessary at this
time. Additionally, SSA provided some general comments on the statistical methods we
used in our audit work. (See Appendix C for the Agency’s comments.)

OIG RESPONSE
Our report demonstrates the need for SSA to issue a reminder to staff to process
non-medical denials for SSI claims that do not meet requirements before referring to the
DDS. Specifically, our review showed that SSA spent about $3.8 million on
7,391 unnecessary medical determinations for SSI-only claims in 2009 (0.7 percent of
the 1.1 million SSI-only medical determinations completed during the year). Although
the Agency correctly referred 99.3 percent of SSI-only claims to the DDSs for medical

12
  SSA OIG, Supplemental Security Income Recipients with Unreported Real Property (A-02-09-29025),
June 2011, and Supplemental Security Income Recipients with Unreported Vehicles (A-02-08-28038),
July 2009.
Page 9 - The Commissioner

determinations, cutting costs wherever possible should be a priority for SSA. This is
increasingly important given the current budget environment—as noted in the excerpt
below from the SSA Commissioner’s message to all employees on December 23, 2011.

      Accounting for the across-the-board reduction that each agency had to
      take, we received a small increase of about $25 million over last year’s
      budget. This budget increase does not pay for much of our more than
      $300 million increase in fixed costs, so it will be another very tight year. We
      are in the process of making some difficult decisions so that we can
      accomplish our most important missions.

Furthermore, as noted in the Background section of our report, it costs SSA $16.70 to
process a non-medical denial claim; whereas it costs $519 per claim if the case is sent
to a DDS for a medical determination. Reminding staff to deny a claim because the
individual does not meet the non-medical eligibility factors so the Agency only incurs a
cost of $16.70 instead of sending the case to the DDS for a medical decision at a cost
of $519 is fiscally responsible—especially since the time to issue such reminders is
minimal. 13

We initially held a meeting with SSA on June 21, 2011, at the start of our audit, to
discuss our audit objective and methodology. At that time, no one from SSA raised any
concern about our sample size or methodology. On September 14, 2011, we issued the
discussion draft report to SSA and met with Agency staff on September 22, 2011 to
discuss it. At that time, no one—including the employees from SSA’s Office of Quality
Performance—raised any concern about the statistical method used for this review.

Also, although an invitation for the September 22nd meeting was sent to the Office of the
Chief Actuary, no one from the Actuary’s office attended. On November 1, 2011, SSA
contacted us and inquired about the projection upper and lower limits in Appendix B of
the report. We answered SSA’s question on that same day and informed SSA staff that
if they had “. . . any further questions . . . to contact our statistician . . . .” SSA did not
contact us further with any concerns with the statistical methods used in our audit until it
provided written comments to the draft report on December 23, 2011. These comments
are in Appendix C.

We offer the following information to address SSA’s specific comments on the statistical
methods we used in our audit work.

•    Our statistical methods, policies, and procedures were sound and followed standard
     protocol.

•    The Agency expressed concern that the sample sizes used were unnecessarily
     small. For this review, we randomly sampled 250 individuals from our first

13
  Between 1997 and 2011, the OIG made 82 recommendations in 68 reports that involved reminding
staff of current Agency policy. SSA agreed with all 82 recommendations, issued 77 reminders (24 were
released before we issued our final reports) and, as of January 2012, planned to issue 5 reminders.
Page 10 - The Commissioner

    population of 19,395 and 50 individuals from a second population of 519 to
    determine whether these individuals needed a medical determination of disability.
    Our finding rate was of critical importance. For our first sample, 93 (37 percent) of
    the 250 individuals did not need a medical determination of disability. For
    17 (34 percent) of the 50 individuals in our second sample, this also held true. With
    such high finding rates from randomly selected samples, large sample sizes were
    unnecessary. Our analysis showed that over one-third of the individuals in both our
    samples received medical determinations but did not meet the non-medical criteria
    for SSI.

•   Our findings were reliable, and a larger sample size would not have provided more
    reliable results. The Agency requested sample sizes that allow for reporting at the
    95-percent confidence level. Our current standards are, and have been for over a
    decade, to report at the 90-percent confidence level. Furthermore, other Federal
    agencies use the 90-percent confidence level for reporting purposes. For example,
    the Department of Health and Human Services’ OIG used the 90-percent confidence
    level and a sample of 100 for a population of 17,640. In another example, the
    Treasury Inspector General for Tax Administration used the 90-percent confidence
    level and a sample of 296 for a population of 222,509.

•   The Agency was concerned about the information displayed in the tables in the body
    of the report. We did not report the margin of error in Tables 1 and 2, as these
    tables illustrated the various reasons for denial for the sampled claims with an
    unnecessary medical determination (the 93 and 17 cases). We did not provide any
    projections or estimation of these reasons; rather, we provided the reader a detailed
    analysis of the denials. Based on SSA’s concerns, we added notes to Tables 1 and
    2 to more clearly indicate that the information in the tables is the detail of our actual
    sample cases. Attempting to apply statistical significance to each of these reasons
    would have been erroneous, as we were only showing the make-up of the 93 and
    17 cases, respectively, in the tables. Failure to share these reasons with the reader
    and Agency would have been a disservice, as they can assist policymakers as they
    attempt to address this issue.

•   We reported the margins of error with our projection lower and upper limits in
    Tables B-2, B-3, B-5, and B-6 in Appendix B. In the future, we plan to continue
    reporting this detailed statistical information in the appendices of our reports and will
    include this information in the body of the report, when appropriate.

•   The Agency was concerned with the calculation of the total cost of unnecessary
    medical determinations. To arrive at our figure of approximately $3.8 million, we
    multiplied the point estimates of our two attribute projections by the FY 2009
    average medical determination cost figures. We explained in detail in Appendix B
    the steps taken to develop our estimate.
Page 11 - The Commissioner

•   Under Government Auditing Standards, we are required to have a peer review at
    least once every 3 years. Since SSA became an independent agency in 1995, we
    have had a peer review performed by another OIG within every 3-year period and no
    concerns have been raised with our sampling methodologies.




                                       Patrick P. O’Carroll, Jr.
                                   Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope, Methodology, and Sample Results

APPENDIX C – Agency Comments

APPENDIX D – OIG Contacts and Staff Acknowledgments
                                                   Appendix A

Acronyms
AFI      Access to Financial Institutions
ALJ      Administrative Law Judge
CY       Calendar Year
DDS      Disability Determination Services
DDSQ     Disability Determination Services Query
FY       Fiscal Year
OAct     Office of the Chief Actuary
OIG      Office of the Inspector General
ORS      Online Retrieval System
POMS     Program Operations Manual System
SSA      Social Security Administration
SSI      Supplemental Security Income
SSR      Supplemental Security Record
U.S.C.   United States Code
                                                                     Appendix B

Scope, Methodology, and Sample Results
To achieve our objective, we:

•   Reviewed applicable sections of the Social Security Act and the Social Security
    Administration’s (SSA) regulations, rules, policies, and procedures.

•   Reviewed prior Office of the Inspector General reports.

•   Obtained a file of Supplemental Security Income (SSI) only claims with a medical
    determination made by the disability determination services (DDS) in Calendar Year
    (CY) 2009 that appeared to have been non-medically denied. From this file, we
    identified 19,395 claimants whose claims appeared to have been unnecessarily sent
    to the DDS.

      Selected a random sample of 250 cases for detailed review.
      For each case, we reviewed SSA’s systems, including the Supplemental
       Security Record (SSR), Disability Determination Services Query (DDSQ), and
       the Online Retrieval System (ORS) to determine whether the claims should
       have been non-medically denied instead of being sent to the DDS for a medical
       determination.

•   Obtained a file of SSI-only claims with medical decisions made by an administrative
    law judge (ALJ) in CY 2009 that appeared to have been non-medically denied.
    From this file, we identified 519 claimants whose claims appeared to have been
    unnecessarily sent to an ALJ.

        Selected a random sample of 50 cases for detailed review.
        For each case, we reviewed SSA’s systems, including the SSR, DDSQ, and
         ORS to determine whether the claims should have been non-medically
         denied instead of being sent to an ALJ for a medical decision.

•   Obtained the average cost per case for DDS determinations and ALJ decisions.

•   Obtained the number of SSI disability claims denied without being sent to the DDS in
    2009.

•   Obtained the SSA field office average cost to process a non-medical denial in 2009.

We conducted our audit between June and August 2011 in Boston, Massachusetts.
The entity audited was SSA’s field office staff under the Office of the Deputy
Commissioner for Operations. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we


                                           B-1
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
tested the data obtained for our audit and determined them to be sufficiently reliable to
meet our objective. We believe the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives.

SAMPLE RESULTS

                 Table B-1: Population and Sample Size: DDS Cases
          Population size                                                      19,395
          Sample size                                                                250

          Table B-2: SSI Claims with Unnecessary Determinations Made
                                   by the DDS
                                     Attribute Projections
          Sample cases                                                               93
          Point estimate                                                         7,215
          Projection lower limit                                                 6,233
          Projection upper limit                                                 8,240
         Note: All projections were calculated at the 90-percent confidence level.

             Table B-3: SSI Claims Unnecessarily Referred to the DDS
                                     Attribute Projections
         Sample cases                                                                 89
         Point estimate                                                          6,905
         Projection lower limit                                                  5,935
         Projection upper limit                                                  7,924
         Note: All projections were calculated at the 90-percent confidence level.

                 Table B-4: Population and Sample Size - ALJ Cases
          Population size                                                            519
          Sample size                                                                 50




                                                B-2
          Table B-5: SSI Claims with Unnecessary Decisions Made by an
                                      ALJ
                                     Attribute Projections
          Sample cases                                                                17
          Point estimate                                                             176
          Projection lower limit                                                     122
          Projection upper limit                                                     238
         Note: All projections were calculated at the 90-percent confidence level.

              Table B-6: SSI Claims Unnecessarily Referred to an ALJ
                                     Attribute Projections
         Sample cases                                                                 14
         Point estimate                                                              145
         Projection lower limit                                                       95
         Projection upper limit                                                      206
         Note: All projections were calculated at the 90-percent confidence level.

To calculate the amount spent on unnecessary referrals, we took the point estimate
projected from the number of cases unnecessarily referred and multiplied it by the
average cost to make a medical determination. The total estimated amount SSA spent
on unnecessary referrals in 2009 was $3,753,490. This consisted of $3,583,695 spent
on unnecessary referrals to the DDS and $169,795 spent on unnecessary referrals to
an ALJ.

   •   For the unnecessary referrals to the DDS, we multiplied the point estimate of
       6,905 (in Table B-3) by $519, the average cost for the DDS to process a medical
       determination in FY 2009.

   •   For the unnecessary referrals to an ALJ, we multiplied the point estimate of
       145 (in Table B-6) by $1,171, the average cost for an ALJ to make a medical
       decision in FY 2009.




                                                B-3
                  Appendix C

Agency Comments
                                      SOCIAL SECURITY
MEMORANDUM


Date:   December 23, 2011                                                       Refer To: S1J-3

To:     Patrick P. O’Carroll, Jr.
        Inspector General

From:   Dean S. Landis /s/
        Deputy Chief of Staff

Subject: Office of the Inspector General Draft Report, “Unnecessary Medical Determinations for
        Supplemental Security Income Disability Claims” (A-01-10-20120)—INFORMATION

        Thank you for the opportunity to review the draft report. Please see our attached comments.

        Please let me know if we can be of further assistance. You may direct staff inquiries to
        Frances Cord, at (410) 966-5787.

        Attachment




                                                       C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “UNNECESSARY MEDICAL DETERMINATIONS FOR SUPPLEMENTAL
SECURITY INCOME DISABILITY CLAIMS” (A-01-10-20120)

GENERAL COMMENTS

We offer several comments on the statistical methods used in this audit that are generally
applicable to all OIG audits. Statistical analyses should follow standard protocol, including:

   •   Selecting sufficient sample sizes to allow for statistically sound findings;
   •   identifying confidence intervals, margins of error, and the associated statistical
       significance of reported findings;
   •   confirming that the study sample is representative of the population studied; and,
   •   stating whether any extrapolation from the sample to the overall study population is
       sound and reliable.

In addition to these issues, which relate to statistical sampling and reporting procedures, failure
to identify or address data quality and reliability issues can significantly affect the reported
results.

Both the Office of Quality Performance (OQP) and the Office of the Chief Actuary (OCACT)
reviewed this report and found the presentation to be incomplete and potentially misleading.
First, the sample sizes used were unnecessarily small. As you are aware, a small sample size
results in a greater margin of error for the findings (a wider confidence interval) for any selected
level of confidence (90 or 95 percent). For example, using standard formulae for calculating
minimum sample sizes, the 19,395 population of disability determination services (DDS) cases
using the sample size of 250 is consistent with a 5.2 percentage-point margin of error, assuming
a 90 percent level of confidence. For the 519 population of Administrative Law Judge cases, the
sample size of 50 is consistent with an 11.1 percentage-point margin of error, assuming a
90 percent level of confidence. Using a larger sample size for either of these cohorts would
result in more reliable findings with less margin of error. For future reports, we urge OIG to use
adequate sample sizes that will produce results consistent with a level of confidence not less than
95 percent.

A major shortcoming of the report concerns the information displayed in the tables found in the
body of the report. These tables do not identify the margin of error in the results, thereby
seemingly implying that the results are valid. In Table 1, found on page 4 of the draft report, the
90 percent confidence interval may be as wide as plus or minus 13 cases. The table fails to cite
this critical piece of information, and even includes several results that are below or near the
margin of error. Specifically, the number of cases cited for Fugitive Felon Status, and In a
Public Institution in Table 1, 4 cases and 1 case respectively, are not significantly different from
0 for statistical purposes. A similar argument applies to the 14 cases in the Not a Citizen or
Qualified Alien column. For Table 2, found on page 7 of the draft report, each number would be
about plus or minus 5.5 cases for the same confidence interval, resulting in two of the categories
(Not a Citizen or Qualified Alien and In a Public Institution) to be statistically insignificant. The
remaining two categories, each of which contains 7 cases, border the margin of error. While you


                                                C-2
reflect these margins of error with the projection lower and upper limits in Appendix B in
Tables B-2, B-3, B-5, and B-6, it is potentially misleading to exclude this critical information
from the body of your report. It is also misleading to represent as findings numbers of cases that
fall well within the margins of error in your studies.

You also calculate the total cost of the unnecessary medical determinations for the
7,391 Supplemental Security Income claims. Unfortunately, presenting that information without
acknowledging the margin of error in both dollars and the number of cases represents an
incomplete and statistically unreliable analysis.

We urge you to apply sound statistical principles so that future reports fully disclose all relevant
information, are statistically sound, and offer a reliable and thorough analysis of the issues under
consideration. IG could remedy most of the issues we raise by using larger sample sizes in your
studies and by fully disclosing in the body of the report the margins of error for the data you
present. We will continue to consult with OCACT during our review of future reports containing
statistical analyses and will raise similar objections in the future as needed.

RESPONSE TO RECOMMENDATION

Recommendation

The Social Security Administration should remind staff to process non-medical denials for SSI
claims that do not meet requirements before referring to the DDS.

Response

We disagree. In 2009, we correctly referred 99.7 percent of our cases to the DDSs for a medical
decision. Because of our high level of accuracy, we do not believe a reminder is necessary at
this time.




                                                C-3
                                       SOCIAL SECURITY

MEMORANDUM


Date:   January 23, 2011                                                         Refer To: S1J-3

To:     Patrick P. O’Carroll, Jr.
        Inspector General

From:   Dean S. Landis
        Deputy Chief of Staff

Subject: Office of the Inspector General Draft Report, “Unnecessary Medical Determinations for
        Supplemental Security Income Disability Claims” (A-01-10-20120)—INFORMATION


        Thank you for the opportunity to review your rebuttal to our December 23, 2011 comments. We
        shared your comments with the Chief Actuary and include his response below. However, we
        would first like to address two issues raised in your rebuttal.

        First, you state that your limited sampling was due to a "constrained resource environment."
        While we understand the need to find the proper balance between competing workloads during
        periods of limited budgets, we do not believe "constrained resource[s]" are a sufficient
        justification for the limited sampling done in this audit. Focusing our resources on the most
        significant issues, and conducting more thorough and statistically sound analyses on those issues,
        better serves both the Inspector General (IG) and the agency.

        Second, you highlight that the Office of the Chief Actuary (OAct) did not attend either the
        entrance or exit conference for this audit. OAct is not always able to attend the numerous
        entrance and exit conferences due to the press of other work. We assume that your own
        statisticians do not attend the entrance and exit conferences to explain the statistical methodology
        used in your analyses for similar reasons. To alleviate these concerns, we request that you
        provide written sampling plans that clearly describe the statistical methodology used in the study
        earlier in the audit process. We will share them with OAct and review them prior to providing
        written comments.




                                                        C-4
In response to your most recent comments, the Chief Actuary provided the following remarks:

       The IG concludes that the Social Security Administration (SSA) has a 99.3 percent
       accuracy rate in referring cases to the Disability Determination Services (DDS) for
       medical determinations where SSA asserts a 99.7 percent accuracy rate. Your estimate
       that SSA referred 7,931 cases inappropriately is subject to a considerable margin of
       uncertainty because you based this estimate on a relatively small sample of cases, and,
       therefore, it is difficult to conclude that these accuracy rates are materially different. In
       any case, an accuracy rate greater than 99 percent would be very good considering the
       often complex and subjective judgments involved in disability determinations. The
       estimated $3.8 million in additional administrative expense is also subject to a large range
       of uncertainty. While we agree there will always be inaccuracies in making referrals to
       the DDS, the accuracy of these referrals indicated here would seem not only reasonable
       but also commendable.

       In the second bullet on the bottom of page 9 of the draft report, the IG acknowledges that
       " ... a small sample size results in greater margin of error ... " and we agree with this
       point. However, in the first bullet on page 1 0, you seem to contradict this statement,
       asserting, "a larger sample size would not have provided more reliable findings." Since
       these statements are contradictory, we recommend clarification.

       In the second bullet on page 10, the IO suggests that indicating the margin of error for
       tables 1 and 2 would have been erroneous. We disagree. Providing a statistically valid
       margin of error for the distributions of sample cases by reason of inappropriate referral
       for a medical review could only serve to assist the reader in interpreting the values in the
       tables. While the distributions shown are clearly exact for the small samples used, the
       implication is that these distributions would apply to the broader universe of cases. It
       would be helpful to indicate the margin of uncertainty for these values as estimated for
       the distribution for the entire universe of cases.

       In the third bullet on page 10, you indicate that the margin of error is shown in
       Appendix B. However, we suggest that you disclose equivalent information about the
       margin of error in tables 1 and 2, and also on page 3, where you present the estimated
       percentage of cases you find referred inappropriately.

       In the final bullet on page 10, you indicate that showing margin of error at a 90-percent
       level of confidence is adequate per Government Accountability Office standards. While
       we prefer a stricter level of confidence at 95 percent, we would not object to the
       90-percent level of confidence if clearly indicated. Fully informing the reader of the
       limitations of the data is very important.




                                               C-5
                                                                         Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Judith Oliveira, Director, Boston Audit Division

   Phillip Hanvy, Audit Manager

Acknowledgments

In addition to those named above:

   Katie Greenwood, Senior Auditor

   Kevin Joyce, IT Specialist

   N. Brennan Kraje, Statistician

   Frank Salamone, Senior Auditor

   Alla Resman, IT Specialist

   Charles Zaepfel, IT Specialist

For additional copies of this report, please visit our Website at http://oig.ssa.gov/ or
contact the Office of the Inspector General’s Public Affairs Staff at (410) 965-4518.
Refer to Common Identification Number A-01-10-20120.
                                 DISTRIBUTION SCHEDULE


Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions and
Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
